                                                                             Report No. DODIG-2015-011



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 29, 2014




                     Evaluation of the Defense Criminal
                     Investigative Organizations’ Defense
                     Incident-Based Reporting System
                     Reporting and Reporting Accuracy




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                         dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                          Results in Brief
                                          Evaluation of the Defense Criminal Investigative
                                          Organizations’ Defense Incident-Based Reporting
                                          System Reporting and Reporting Accuracy


October 29, 2014                                                   Recommendations (Cont’d)

Objective                                                            	   forum for the exchange of information, best
                                                                         practices, and the continuing operation of the
We evaluated the Defense Criminal Investigative
                                                                         DIBRS, as required by DoDM 7730.47‑M, Volume 1.
Organizations’ (DCIOs) process for reporting
accurate criminal incident data to Defense                           •	 The Director, DHRA, obtain FBI certification for
Incident‑Based Reporting System (DIBRS) in                              DIBRS, as required by DoDM 7730.47‑M, Volume 1.
accordance with DoD Manual (DoDM) 7730.47‑M,
Volume 1, “Defense Incident-Based Reporting                          •	 The Director, DHRA, ensure DIBRS criminal
System (DIBRS): Data Segments and Elements,”                            incident data are reviewed and submitted to
December 7, 2010.1                                                      the FBI National Incident-Based Reporting
                                                                        System for inclusion in the annual Uniform
Finding                                                                 Crime Reports, as required by DoDM 7730.47‑M,
DoD is not reporting criminal incident data to                          Volume 1.
the Federal Bureau of Investigation (FBI)
                                                                     •	 The Director, DHRA, ensure DIBRS error corrections
for inclusion in the annual Uniform Crime
                                                                        are tracked to completion as required by
Reports to the President, the Congress, State
                                                                        DoDM 7730.47‑M, Volume 1.
governments, and officials of localities and
institutions participating in the Uniform Crime                      •	 The Director, Naval Criminal Investigative Service;
Report Program, as required by Federal law.                             Commander, Air Force Office of Special Investi-
The FBI uses the data to develop a reliable                             gations; Director, Defense Criminal Investigative
set of criminal statistics for U.S. law                                 Service ensure the DIBRS data submitters
enforcement agencies.                                                   provide accurate and complete data submissions
                                                                        within 15 workdays after the end of each month
Recommendations                                                         as required by DoDM 7730.47‑M, Volume 1.
      •	 The Director, Defense Human Resources
                                                                     •	 The Commander, U.S. Army Criminal Investigative
         Activity, (DHRA), provide functional
                                                                        Command; Director, Naval Criminal Investigative
         guidance to Defense Manpower Data
                                                                        Service; Commander, Air Force Office of Special
         Center (DMDC) and the DIBRS data
                                                                        Investigations ensure DIBRS error corrections
         submitters by reestablishing the cross-
                                                                        are completed within 30 days of DMDC providing
         functional DIBRS Council to provide a
                                                                        notification as required by DoDM 7730.47‑M,
                                                                        Volume 1.

	1	
      We limited our review to the three Military Criminal
      Investigative Organizations (MCIOs) with accounts in DIBRS
      and Defense Criminal Investigative Service (DCIS), which
      currently does not have an account. We did not evaluate
      the remaining five DoD Components with accounts in DIBRS.
      DoDD 7730.47 tasks the DoD OIG with monitoring compliance
      with this instruction as it relates to the DCIOs.

Visit us at www.dodig.mil


                                                                                          DODIG-2015-011 (Project No. C2013-C003) │ i
                                        Results in Brief
                                        Evaluation of the Defense Criminal Investigative
                                        Organizations’ Defense Incident-Based Reporting
                                        System Reporting and Reporting Accuracy




  Management Comments                                       Investigative Service; Commander, Air Force Office of
                                                            Special Investigations and the Director, Defense Criminal
  Overall, the Director, Defense Human Resources Activity   Investigative Service concurred with their respective
  concurred with our recommendation to obtain FBI           recommendations concerning providing accurate and
  certification for DIBRS, as required by DoDM 7730.47‑M,   complete data, and completing DIBRS error corrections.
  Volume 1. The Commander, U.S. Army Criminal
  Investigative Command; Director, Naval Criminal




ii │ DODIG-2015-011 (Project No. C2013-C003)
Recommendations Table
                                                                             No Additional
                                                        Recommendations
                      Management                                              Comments
                                                        Requiring Comment      Required
The Director, DHRA                                                          1.a, b, c and d
Commander, U.S. Army Criminal Investigative Command                         2.b
Director, Naval Criminal Investigative Service                              2.a and b
Commander, Air Force Office of Special Investigations                       2.a and b
Director, Defense Criminal Investigative Service                            2.a




                                                                       DODIG-2015-011 (Project No. C2013-C003) │ iii
                                             INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                             4800 MARK CENTER DRIVE
                                          ALEXANDRIA, VIRGINIA 22350-1500


                                                                                             October 29, 2014

         MEMORANDUM FOR DIRECTOR, DEFENSE HUMAN RESOURCES AGENCY
                        ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
                        	 AND COMPTROLLER)
                        NAVAL INSPECTOR GENERAL
                        AUDITOR GENERAL, DEPARTMENT OF THE ARMY

         SUBJECT:	 Evaluation of the Defense Criminal Investigative Organizations’ Defense
                   Incident-Based Reporting System Reporting and Reporting Accuracy
                   (Report No. DODIG-2015-011)

         This final report is provided for information and use. We evaluated the Defense Criminal
         Investigative Organizations’ (DCIOs) process for reporting accurate criminal incident data to the
         Defense Incident-Based Reporting System (DIBRS) in accordance with DoD Directive 7730.47 and
         DoD Manual 7730.47 M, Volume 1, “Defense Incident-Based Reporting System (DIBRS): Data
         Segments and Elements,” December 7, 2010. “Defense Incident-Based Reporting System (DIBRS).

         We found DoD does not report criminal incident data to the Federal Bureau of Investigation (FBI)
         as required by the Uniform Federal Crime Reporting Act of 1988 and DoD Directive 7730.47.

         We considered management comments on a draft of this report when preparing the final
         report. The Director, Defense Human Resources Activity concurred with our recommendation to
         obtain FBI certification for DIBRS, as required by DoDM 7730.47 M, Volume 1. The Commander,
         U.S. Army Criminal Investigative Command; Director, Naval Criminal Investigative Service;
         Commander, Air Force Office of Special Investigations and the Director, Defense Criminal
         Investigative Service concurred with their respective recommendations concerning providing
         accurate and complete data, and completing DIBRS error corrections.

         Management’s comments were responsive to the draft and conformed to the requirements of
         DoD Directive 7650.3; therefore, additional comments are not required.

         We appreciate the courtesies extended to the review staff. For additional information on this
         report, please contact Mr. Jeff Bennett, Director of Oversight, (703) 699-5667.




         	                                            Randolph R. Stone
         	                                            Deputy Inspector General
         	                                            Policy and Oversight




iv │ DODIG-2015-011
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1

Finding. DoD Is Not Reporting Criminal Incident
Data to the FBI for Inclusion in the Uniform Crime
Reports As Required by Federal Law___________________________________4
DoD Has Started but Not Completed the Requirements for
   DIBRS System Certification_________________________________________________________________4
DoD Does Not Have a Process to Ensure DIBRS Submitting Agencies
   Provided DIBRS Data 15 Workdays After the End of Each Month_______________________6
DIBRS Errors_____________________________________________________________________________________6
Each DCIO Had a Different Process for Correcting DIBRS Errors____________________________7
DMDC and the DCIOs Do Not Ensure Corrections to DIBRS Submission
  Errors Are Tracked to Completion_________________________________________________________9
Conclusion______________________________________________________________________________________ 10
Recommendations, Management Comments and Our Response___________________________ 10

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 16
    Use of Computer-Processed Data_ _______________________________________________________ 17
    Prior Coverage_____________________________________________________________________________ 17
Appendix B. NIBRS Certification Requirements_ ___________________________________________ 18
Appendix C. References_______________________________________________________________________ 20

Management Comments
DHRA Comments_______________________________________________________________________________ 23
CIDC Comments________________________________________________________________________________ 25
NCIS Comments________________________________________________________________________________ 26
AFOSI Comments______________________________________________________________________________ 27
DCIS Comments________________________________________________________________________________ 28

Acronyms and Abbreviations______________________________________________ 29

                                                                                                       DODIG-2015-011 │ v
                                                                                                                                    Introduction




Introduction
Objective
We evaluated the Defense Criminal Investigative Organizations’ (DCIOs) process
for reporting accurate criminal incident data to the Defense Incident‑Based
Reporting System (DIBRS) in accordance with DoD Directive 7730.47,2 and
DoD Manual 7730.47‑M, Volume 1, “Defense Incident-Based Reporting System
(DIBRS): Data Segments and Elements,” December 7, 2010. Specifically, we
focused on:

              •	 Whether the DCIOs followed established procedures for reporting
                  incidents to the Defense Manpower Data Center (DMDC);

              •	 How the DCIOs ensured incidents were correctly reported;

              •	 How the DCIOs ensured that DIBRS reporting was accurate; and

              •	 Whether DIBRS criminal incident data reporting complied with Federal
                  law and DoD policy and guidance.


Background
The DoD Office of Inspector General (OIG) initiated this project to evaluate
whether the DCIOs’ DIBRS criminal incident data reporting complied with Federal
law and DoD policy and guidance as set forth in DoD Directive 7730.47 and
DoD Manual 7730.47‑M, Volume I.

The Uniform Federal Crime Reporting Act of 1988 (28 U.S.C 534 note), as amended
requires the United States Attorney General to collect and preserve national data
on Federal criminal offenses as part of the Uniform Crime Reports (UCR) Program.
The program was conceived in 1929 by the International Association of Chiefs of
Police to meet the need for reliable uniform crime statistics. The Act directs
Federal agencies that routinely investigate complaints of criminal activity to report
details about such crimes to the Attorney General. The Federal Bureau of
Investigation (FBI) was designated as the central collection point for criminal
incident data reporting.  The FBI’s National Incident-Based Reporting System (NIBRS)

	2	
      The governing guidance during the period of our review was the standard outlined in DoD Directive 7730.47
      (certified current as of December 1, 2003). After completing our DIBRS Program review but prior to publishing our
      report, OUSD (P&R) reissued DoD Directive (DoDD) 7730.47 as DoD Instruction (DoDI) 7730.47 (dated January 23, 2014).
      Not withstanding the issuance of DODI 7730.47, all references in this report are to DoDD 7730.47, which was in effect
      during the evaluation period, unless otherwise noted. We analyzed DoDI 7730.47 and found it does not affect the findings
      or recommendations we identified during our review.




                                                                                                                                 DODIG-2015-011 │ 1
Introduction



                 (its crime reporting system) was designed to collect and store data on each crime
                 occurrence and on each incident and arrest within that occurrence.  The FBI uses the
                 data to develop a reliable set of criminal statistics for law enforcement agencies
                 throughout the country to use in their administration, operation, and management.

                 Additional data collection and reporting requirements are contained in the
                 Victims’ Rights and Restitution Act of 1990 (49 U.S.C. 10601 note) and the
                 Brady Handgun Violence Prevention Act (18 U.S.C. 921 note).

                 The DCIOs conduct investigations meeting the mandatory data collection and
                 reporting requirements of the Uniform Federal Crime Reporting Act of 1988,
                 Victims’ Rights and Restitution, and Brady Handgun Violence Prevention Acts.
                 DoD Directive 7730.47, “Defense Incident-Based Reporting System (DIBRS),”
                 December 1, 2003, and DoD Manual 7730.47‑M implements those Federal
                 laws.       The Directive and the Manual require DoD Components with law
                 enforcement, criminal investigative, military justice, and corrections functions
                 to comply with the crime reporting requirements contained in the Acts.3

                 To comply with the requirements, DoD created the DIBRS, a central repository
                 of incident‑based statistical data maintained and operated at the DMDC, which
                 reports to Office of the Under Secretary of Defense (Personnel and Readiness)
                 (OUSD  (P&R)). The DIBRS database maintained by the DMDC is the tool the DoD
                 uses to collect and transmit NIBRS reportable criminal incident data for use in
                 the FBI’s Uniform Crime Report Program.

                 DoD Directive 7730.47 assigned the Under Secretary of Defense for Personnel
                 and Readiness (USD[P&R]) responsibility for developing policy for DIBRS and to
                 monitor compliance with the Directive (see footnote 3).

                 DoD Directive 7730.47 designated the Director of Law Enforcement Policy and
                 Support (LEPS), Defense Human Resources Activity (DHRA), Office of the Under
                 Secretary of Defense for Personnel and Readiness (OUSD  (P&R)), the Principal
                 Staff Assistant for purposes of overseeing DIBRS implementation.




                 	3	
                       We limited our review to the three Military Criminal Investigative Organizations (MCIOs) with accounts in DIBRS and the
                       Defense Criminal Investigative Service (DCIS), which currently does not have an account. We did not evaluate the remaining
                       five DoD Components with accounts in DIBRS. The DoDD 7730.47 tasks the DoD OIG with monitoring compliance with this
                       instruction as it relates to the DCIOs.




2 │ DODIG-2015-011
                                                                                     Introduction



Finally, DoD Manual 7730.47‑M, Volume 1, requires agencies to provide DIBRS
with criminal incident data 15 days after the end of each month. DMDC is required
to return submissions containing errors with full explanations and descriptions
of the errors. The submitting agency makes corrections and resubmits the
data within 30 days.  Submission of errors is required to be tracked to completion
by DMDC and the submitting agencies.




                                                                                 DODIG-2015-011 │ 3
Finding




                 Finding
                 DoD Is Not Reporting Criminal Incident Data to the FBI
                 for Inclusion in the Uniform Crime Reports As Required
                 by Federal Law

                 As a result, 10 years of DoD criminal incident data have not been provided to
                 the FBI for inclusion in the annual uniform crime reports to the President, the
                 Congress,    State   governments,     and   officials   of   localities   and   institutions
                 participating in the UCR Program, as implemented in DoD  Directive  7730.47
                 and DoD Manual 7730.47‑M, Volume 1.

                 The Uniform Federal Crime Reporting Act of 1988 requires the United States
                 Attorney General to collect and preserve national data on Federal criminal offenses
                 as part of the UCR Program. The Act directs Federal agencies that routinely
                 investigate complaints of criminal activity to report details about crimes to the
                 Attorney General.  DoD policies such as DoD Manual 7730.47‑M, Volume 1,
                 implements those Federal laws and requires DoD Components with law enforcement,
                 criminal investigative, military justice, and corrections functions to comply with the
                 crime reporting requirements.

                 DoD Directive 7730.47 required the OUSD (P&R) to ensure that DMDC formulates a
                 data collection mechanism to track and report DIBRS information from initial
                 contact through investigation, prosecution, confinement, and release and to report
                 NIBRS data to the FBI.

                 DMDC formulated a data collection mechanism to track and report DIBRS
                 information, but DMDC never completed the FBI’s certification requirements to
                 report NIBRS data to the FBI, which is contrary to DoD Directive 7730.47.


                 DoD Has Started but Not Completed the Requirements
                 for DIBRS System Certification
                 For an agency to submit criminal incident data to NIBRS for inclusion in the
                 annual uniform crime reports, the FBI’s Criminal Justice Information System (CJIS)
                 Division, Crime Statistics Management Unit, Uniformed Crime Reporting Office, must
                 first certify the agency’s data system.




4 │ DODIG-2015-011
                                                                                               Finding



The CJIS NIBRS Coordinator stated DoD must meet certain criteria in order to
obtain system certification. The criteria are: (1) system appropriateness: the
agency must provide evidence their NIBRS-reporting system is compatible with
the FBI’s UCR system; (2) update capability and responsiveness: the agency must
demonstrate its ability to update submissions, meet deadlines, respond to FBI
queries and requests, and correct errors received from the FBI UCR Program in
a timely manner; and (3) error rate: requires a sustained error rate of 4 percent or
less for three separate data submissions. Refer to Appendix B for additional
information on the NIBRS certification requirements.

The CJIS NIBRS Coordinator stated DoD does not yet meet criterion (2) update
capability and responsiveness. He added that a contributing agency must, at
minimum, maintain a 2-year (retention period) database of NIBRS submissions
and have the capability to update incidents from the previous calendar year.
The CJIS NIBRS Coordinator told us it was his understanding DIBRS contributors
submit incidents when the case is closed. He also reported it was his understanding
if there are errors, DMDC lacks the ability to require the DoD contributors to
modify or correct the data on a closed incident and DMDC is unsure how to resolve
this issue.

The DMDC DIBRS Database Administrator confirmed the DoD DIBRS data
system is not certified by the FBI. He stated in order to obtain FBI certification,
DMDC had to provide 3 months of data with a less than 3 percent error rate.
The DMDC DIBRS Database Administrator told us they were close to achieving
the 3  percent  error rate. According to CJIS, the acceptable error rate is less than
4 percent, and DoD is meeting the requirement. The DMDC DIBRS Database
Administrator was also aware that DMDC had to demonstrate the ability to
correct errors and resubmit corrected or error-free data. The DMDC DIBRS
Database Administrator did not complete the NIBRS certification due to his belief
the reporting agencies do not have the resources to retroactively correct data.
The DMDC DIBRS Database Administrator stated in October 2012, the issue was
brought to the attention of the Director of Law Enforcement Policy and Support,
DHRA, OUSD  (P&R), who has responsibility for oversight of DMDC and the DIBRS
program.      The   Director   of   Law   Enforcement   Policy   and   Support,   DHRA,
OUSD  (P&R), reported he was not aware if the DCIOs had sufficient personnel or
what training each DCIO provided to personnel responsible for DIBRS reporting.




                                                                                      DODIG-2015-011 │ 5
Finding



                 DoD Does Not Have a Process to Ensure DIBRS
                 Submitting Agencies Provided DIBRS Data 15 Workdays
                 After the End of Each Month
                 DoD Manual 7730.47‑M, Volume 1, states:

                            All DIBRS data submitters shall prepare reports using the specified
                            reporting procedures and submit them 15 workdays after the end
                            of each month.

                 The Director of Law Enforcement Policy and Support, DHRA, OUSD  (P&R), is
                 responsible for developing policy for DIBRS.  The Director stated although there
                 is a requirement for monthly reporting to DIBRS by the MCIOs, it is not an issue
                 if they are a month behind in reporting.  We learned DIBRS continuously updates
                 database information, and data reported a month late gets updated in subsequent
                 monthly submissions.

                 The DMDC DIBRS Database Administrator stated the submitting agencies report
                 criminal incident information to DMDC on a monthly basis within the first 15 days
                 of the month, as required by DoD Manual 7730.47, Volume 1. However, if the
                 submitting agencies have problems with their information technology (IT), data
                 errors, or if there is a change in personnel administering the DIBRS function, it
                 may delay their reporting submissions. During our review we noted Air Force
                 Office of Special Investigations (AFOSI) was not reporting DIBRS information during
                 the period of August 2012 through January 2013. The DIBRS reporting lapse was
                 due to the AFOSI DIBRS program administrators departing before replacements
                 were trained on their responsibilities. The reporting lapse was immediately
                 corrected based on our observation.


                 DIBRS Errors
                 Each MCIO has a separate account on DMDC’s secure server to connect and
                 transfer the data from their systems to DMDC. When DMDC receives the data,
                 it is run through a series of testing programs that check each data element and
                 compare it to the requirements. If the MCIO’s data elements are incorrect, an
                 error report is created on a particular record. Once the testing is complete, DMDC
                 creates an error report, which identifies the number of records in error. DMDC
                 forwards the error report to the MCIOs to correct the data and resubmit it.
                 According to the DIBRS Database Administrator, DMDC’s role is to analyze the
                 data against published DIBRS values, provide feedback to submitting agencies




6 │ DODIG-2015-011
                                                                                               Finding



on data not adhering to policy, and archive and report the data to NIBRS. As the
originators of the DIBRS information, the MCIOs are responsible for DIBRS data
input and are thus responsible for correcting errors identified by DMDC.


Each DCIO Had a Different Process for Correcting
DIBRS Errors
DCIS
While DCIS investigates various offenses that are DIBRS reportable, the DCIS
Project Manager, Case Reporting Information Management System (CRIMS), stated
DCIS has not reported DIBRS information to DMDC. The CRIMS Project
Manager did suggest that some DCIS investigative data; i.e., criminal incident
data, may still have been reported to DIBRS by DCIS investigative partners
in joint investigations. DCIS originally anticipated DIBRS reporting would be
incorporated into version 1 of its new CRIMS. However, DCIS reported that in
order to meet its Initial Operating Capability, DCIS could fund only its primary
mission requirements and could not meet unfunded mandates such as DIBRS
reporting. DCIS leadership stated the DIBRS reporting requirement would be
incorporated into CRIMS version 2.

Army
The Deputy Chief Information Officer, Office of the Army Chief Information
Officer   (G-6),    U.S.   Army     Criminal     Investigation   Command   (USACIDC)
Headquarters (HQ), is responsible for reporting criminal incident data to DIBRS.
HQ USACIDC reports the most current criminal incident data information
through a secure file transfer protocol on or about the 4th day of each month,
meeting the requirement to report by the 15th day of the month as mandated by
DoD Manual 7730.47-M, Volume 1. The Deputy Chief Information Officer estimated
that USACIDC’s monthly error rate was 10 percent.

HQ USACIDC does not actually correct the erred data. Rather, the method
HQ USACIDC used to resolve (correct) the errors was to “strip” (omit) the errors from
the report. Instead of replacing the erred data with correct data, they enter “NULL” in
the data field, thus eliminating any DIBRS database conflicts. They resubmit the
still uncorrected data to DMDC, usually by the 15th of the month. He explained
“stripping the errors” was a more efficient way to manage the timeliness of
DIBRS submissions because CID does not have a process to obtain corrected data
from the originating investigative field unit.




                                                                                      DODIG-2015-011 │ 7
Finding



                 Navy
                 The   Naval    Criminal    Investigative   Service   (NCIS)   DIBRS   Program   Manager,
                 Consolidated     Law      Enforcement      Operations   Center   (CLEOC)    Directorate,
                 Headquarters, NCIS, stated NCIS submits criminal incident data to DMDC on the
                 15th of every month. The NCIS IT Specialist and CLEOC Database Administrator,
                 who is responsible for submitting criminal incident data to DMDC, stated NCIS rarely
                 receives error reports from DMDC, but when they do, DMDC forwards the error
                 reports by e‑mail. The NCIS DIBRS Program Manager explained they have a
                 pre‑check process that checks data prior to submission to DMDC to ensure there
                 are no errors. NCIS uses the DMDC‑provided edit checker to check for errors in
                 the data prior to submitting the data to DMDC. If the edit checker finds no errors
                 in the data, the data is sent to DMDC. If there are errors, the edit checker checks the
                 data again in subsequent monthly submissions.

                 For example, in its February 2013 submission, NCIS had a total of 2,097 incidents
                 that qualified for DIBRS submission. According to the NCIS IT Program Manager
                 for CLEOC, the 2,097 incidents included new and updated criminal incident data
                 entered in its system combined with incorrect or erred data from previous months.
                 Of the 2,097 incidents, 121 were error-free and submitted to DIBRS. The remaining
                 1,976 incidents contained errors of some type and were not submitted to DMDC.

                 The NCIS DIBRS Program Manager explained that the 1,976 cases containing errors
                 would not be corrected. NCIS’ DIBRS submissions consist of closed cases and NCIS
                 has no process in place for correcting errors in closed cases. Furthermore, the
                 1,976 cases will be resubmitted monthly and will fail again. The NCIS DIBRS
                 Program Manager explained NCIS does not have the time, money, or resources to
                 correct the errors.


                 Air Force
                 The HQ Air Force Office of Special Investigation IT Enterprise Management
                 Directorate (HQ AFOSI/XIW), Investigative Information Management System (I2MS)
                 Program Manager, explained AFOSI submits criminal incident data to DMDC on a
                 monthly basis, however, he did not know the exact date AFOSI makes submission to
                 DMDC. DMDC returns data identified as incorrect or in error to AFOSI. HQ AFOSI
                 forwards the incorrect information to the original submitting AFOSI detachment to
                 correct the data submission.  The AFOSI detachment corrects the data and resubmits
                 to HQ AFOSI.  He stated he was not aware of a timeline to correct the information
                 and return it to DMDC, but the units usually correct data errors within 2 days. He was




8 │ DODIG-2015-011
                                                                                                Finding



not aware of any suspense for having the errors completed and returned to DMDC.
The I2MS Program Manager further stated the DIBRS error rate HQ AFOSI received
from DMDC was approximately 1 to 3 percent. The HQ AFOSI assessment division
randomly reviews 15 to 20 percent of the cases to ensure correct DIBRS reporting.


DMDC and the DCIOs Do Not Ensure Corrections to
DIBRS Submission Errors Are Tracked to Completion
DoD Manual 7730.47‑M, Volume 1, as applied to the submitting agencies, states:

            DMDC shall return submissions containing errors with appropriate
            error notification to the submitting agency. The submitting agency
            shall make the appropriate corrections and resubmit the report
            within 30 days. Data submitted to DMDC is edited in accordance with
            the requirements specified in both volumes of this Manual.  In addition,
            if data element 5, REPORTABLE TO NIBRS, is “Y,” additional edit
            checks are performed in accordance with the FBI requirements
            specified in Volumes 1 to 4 of Reference (n). All errors shall be
            returned to the submitting agency with full explanations and
            descriptions. All data submission errors shall be tracked to
            completion, and;

            [DIBRS submitting agencies shall] coordinate file‑naming
            conventions and security of data with DMDC before the initial
            transmission of data via the Defense Information Systems Network
            or a comparable data network. Submitting organizations are
            responsible for the accuracy and completeness of each electronic
            data transfer.

The DoD Director of Law Enforcement Policy and Support explained there was no
negative impact if the errors were not corrected within 30 days because the
incident data contained in the DIBRS database is continually being updated
by the submitting agencies. Finally, he stated that he thought the DMDC DIBRS
Database Administrator was responsible for tracking errors and ensuring they
are forwarded to the appropriate agency and corrected.

The DMDC Database Administrator maintains copies of the error reports he sends,
but does not track the errors to ensure corrections are made. He does not track or
review data, he only loads data and updates the DIBRS system. He stated data that
passes DIBRS validation is considered correct; but it is the Services’ responsibility
to ensure the data is accurate and correct. He explained he does not have the
authority to give the submitting agencies a suspense for correcting and returning
the data.




                                                                                       DODIG-2015-011 │ 9
Finding



                 Conclusion
                 Our evaluation determined DoD has not completed the FBI’s requirements for the
                 DIBRS database certification; therefore, DoD does not report criminal incident data
                 to the Attorney General, through the FBI, for inclusion in the Uniform Crime
                 Report, as required by the Uniform Federal Crime Reporting Act of 1988 and
                 DoD Directive  7730.47. For approximately 10 years, since the DIBRS database
                 became   operational,   DIBRS   has   functioned   as   a   database   that   did   not
                 populate its data into NIBRS for inclusion in the Uniform Crime Report.

                 Although DoD is a Federal agency that routinely investigates complaints of criminal
                 activity, it does not report details about such crimes to the FBI for inclusion
                 in the National Incident‑Based Reporting System database and the annual
                 uniform crime reports. The DIBRS Database Administrator is aware of the FBI’s
                 requirements to obtain certification, but has not submitted the required DoD
                 criminal incident data to NIBRS to obtain the certification. As a result, DMDC has
                 never submitted DIBRS data to the FBI for inclusion in their annual UCRs.

                 Our evaluation determined DoD’s ability to submit criminal incident data to the
                 NIBRS database as mandated by DoD Directive 7730.47 could be impacted due to
                 the submitting agency’s (MCIO’s) inaccurate and/or incomplete DIBRS criminal
                 incident data reporting to the DMDC. DoD, through DMDC, does not have a process
                 to ensure the DCIOs submit required criminal incident data by the 15th of each
                 month. Additionally, DoD, through DMDC, does not have a process to ensure
                 identified criminal incident data errors are tracked to correction. Furthermore,
                 we discovered one DCIO is not reporting DIBRS data; one DCIO is reporting a
                 small percentage of criminal incident data collected; and one DCIO is not correcting
                 data. Only one DCIO appeared to submit corrections to criminal incident data.


                 Recommendations, Management Comments and
                 Our Response
                 Overall, the Defense Human Resources Activity (DHRA) and the Defense Criminal
                 Investigative Organizations (DCIOs) agreed with our report and recommendations. We
                 received management comments on a draft of this report. The comments addressed our
                 assessment of DIBRS reporting status. The management comments are summarized and
                 addressed below, and included verbatim as Management Comments.




10 │ DODIG-2015-011
                                                                                              Finding



Recommendation 1
     1a. 	The Director, Defense Human Resources Activity, (DHRA), provide
           functional guidance to Defense Manpower Data Center (DMDC) and the
           DIBRS data submitters by reestablishing the cross-functional DIBRS
           Council to provide a forum for the exchange of information, best
           practices, and the continuing operation of the DIBRS, as required by
           DoDM 7730.47-M, Volume 1.

DHRA Comments
DHRA partially concurred with recommendation 1a and provided: The DIBRS
Council has effectively never dissolved; it has morphed into and been absorbed
by a broader governance of DoD law enforcement agency criminal justice
information (CJI) collection, sharing, and reporting post nine eleven (sic). While
DIRBS reporting is still important, DoD has put its limited resources toward
developing a new CJI reporting system. The CJI system is piloting a new process to
extract UCR (DIBRS) data from law enforcement agency databases thereby removing
the need for the DIBRS database. However, to the extent that priorities permit and
resources are available, the Department will continue to provide a forum for the
exchange of information, best practices, and the continuing operation of the DIBRS.


Our Response
The management comments are responsive to our recommendation. Our evaluation
noted continuing questions and issues from the DCIOs revolving around DIBRS
data submission. Since the new CJI system is still in the data testing phase and does
not yet have the ability to extract UCR (DIBRS) data, the DIBRS Council has a
continuing need to meet and discuss DIBRS issues.

     1b.	 The Director, DHRA, obtain FBI certification for DIBRS, as required by
           DoDM 7730.47-M, Volume 1.

     1c.	 The Director, DHRA, ensure DIBRS criminal incident data are reviewed
           and submitted to the FBI National Incident-Based Reporting System for
           inclusion in the annual Uniform Crime Reports, as required by DoDM
           7730.47-M, Volume 1.

     1d.	 The Director, DHRA, ensure DIBRS error corrections are tracked to
           completion as required by DoDM 7730.47-M, Volume 1.




                                                                                    DODIG-2015-011 │ 11
Finding



                 DHRA Comments
                 DHRA concurred with recommendations 1b, 1c, and 1d, and provided: DoD’s
                 final certification requirement involves a timely return of corrected data. DMDC’s
                 goal has been to obtain the error report from the FBI and correct the error
                 checking software so that these errors will be caught during the period when the
                 data is submitted to DIBRS. This will allow DMDC to address the bad data at the front
                 end of the process instead of the back end (with FBI checks). The DIBRS Database
                 Administrator is working with his FBI CJIS counterpart to work out a plan for the
                 error correction testing process.


                 Our Response
                 The management comments are responsive to our recommendations. DHRA’s
                 plan to work with their FBI CJIS counterpart, as outlined in their response,
                 should help DoD gain system certification and accomplish data submission and
                 tracking requirements.


                 Recommendation 2
                       2a.	 The Commander, U.S. Army Criminal Investigative Command; Director,
                            Naval Criminal Investigative Service; Commander, Air Force Office of
                            Special Investigations; Director, Defense Criminal Investigative Service
                            ensure the DIBRS data submitters provide accurate and complete
                            data submissions within 15 workdays after the end of each month as
                            required by DoDM 7730.47-M, Volume 1.

                 Army Comments
                 The US Army Criminal Investigation Command’s (USACIDC) non-concurred with
                 recommendation 2a and provided: USACIDC does submit DIBRS data, as required,
                 within the 15 day window of each month.


                 Our Response
                 The USACIDC management comment is responsive to our recommendation.
                 We validated USACIDC submits their DIBRS data within 15 workdays after the end of
                 each month. Therefore, we have removed the USACIDC from recommendation 2a.




12 │ DODIG-2015-011
                                                                                            Finding



Navy Comments
The   US    Naval   Criminal    Investigative   Service   (NCIS)   concurred   with
recommendation 2a and provided: NCIS will continue to submit DIBRS data on
the 15th of each month via the Consolidated Law Enforcement Operations
Center (CLEOC), which is the criminal case management system for the Department.
To reduce the number of errors encountered, NCIS (as the program manager for
CLEOC) is reemphasizing to all users the need to provide accurate and complete
information when entering DIBRS required data into CLEOC.


Our Response
The NCIS management comments are responsive are responsive to recommendation 2a.


Air Force Comments
The United States Air Force Office of Special Investigations (AFOSI) concurred with
the recommendation 2a and provided: AFOSI identified and corrected the internal
process flaw which allowed a lapse in reporting to occur, and as of 10 July 2014,
the DIBRS program managers completed corrective action. The OSI Investigative
Information Management System (12MS) program managers now track the monthly
data submissions to ensure OSI DIBRS data will be accurate and complete.


Our Response
The AFOSI management comments are responsive to recommendation 2a.


DCIS Comments
The Defense Criminal Investigative Service (DCIS) concurred with the factual
statements in the draft report that DCIS is not reporting DIBRS data and provided:
DCIS anticipates DIBRS reporting will be addressed subsequent to the deployment of
CRIMS v.2 which is on hold while information technology funding and budget issues
are being addressed OIG-wide. If and when DCIS is able to deploy CRIMS v.2, they
anticipate DIBRS compliance within six months of deployment, depending on
required funding and contract support.




                                                                                  DODIG-2015-011 │ 13
Appendixes



                 DCIS added there is a supportable and rational basis for their lack of compliance
                 with DIBRS reporting requirements. DCIS provided DIBRS does not actually report the
                 information it collects to the FBI’s National Incident-Based Reporting System (NIBRS)
                 as intended; DIBRS has not received certification for reporting to NIBRS; DIBRS is
                 expected to be replaced by the CJI sharing system (D-DEx); and CRIMS v.2 is expected
                 to be CJI sharing system compliant for the purposes of DIBRS criminal investigative
                 data reporting.


                 Our Response
                 The DCIS management comments are responsive to recommendation 2a. While
                 we note DCIS’ rationale for their non-compliance with DIBRS reporting requirements,
                 The Uniform Federal Crime Reporting Act of 1988 (28 U.S.C 534 note) requires Federal
                 agencies to report UCR data. DoD Directive 7730.47, “Defense Incident‑Based Reporting
                 System (DIBRS),” December 1, 2003, and DoD 7730.47‑M implements the Federal law.
                 The Directive and the Manual require DoD Components with law enforcement, criminal
                 investigative, military justice, and corrections functions to comply with the crime
                 reporting requirements.

                 2b. The Commander, U.S. Army Criminal Investigative Command; Director,
                 Naval Criminal Investigative Service; Commander, Air Force Office of Special
                 Investigations ensure DIBRS error corrections are completed within 30 days of
                 DMDC providing notification as required by DoDM 7730.47-M, Volume 1.


                 Army Comments
                 The US Army Criminal Investigation Command (USACIDC) concurred with
                 recommendation 2b and provided: The USACIDC does not currently have a method
                 nor the resources (personnel and/or systems funding) to correct all rejected/error
                 files that are returned from DIBRS. The USACIDC will be fielding a new information
                 system, Army Law Enforcement Reporting and Tracking System, in January 2015,
                 which should reduce the number of errors.


                 Our Response
                 The USACIDC management comments are responsive to recommendation 2b.
                 The USACIDC official reported their organization does not have the resources to
                 reduce the amount errors. Although, USACIDC is hopeful their new reporting system
                 will result in the reduction of DIBRS errors.




14 │ DODIG-2015-011
                                                                                           Appendixes



Navy Comments
The US Naval Criminal Investigative Service (NCIS) concurred with recommendation
2b and provided: NCIS is developing mechanisms and procedures to ensure errors
are corrected in CLEOC within 30 days of notification by DMDC.  Additionally, processes
to ensure accuracy and completeness of DIBRS data will be built into the new
Department of the Navy Naval Justice Information System (NJIS), currently under
development and scheduled for implementation in FY2015.


Our Response
The NCIS management comments are responsive to recommendation 2b. The NCIS
reporting official explained they developed the CLEOC reporting system with new
mechanisms to correct errors. They are hopeful the NJIS reporting system will
ensure better accuracy and completeness of DIBRS data.


Air Force Comments
The AFOSI concurred with recommendation 2b and provided: AFOSI identified
and corrected the internal process flaw which allowed this lapse to occur, and as of
10 July 2014, the DIBRS program managers completed corrective action. The OSI
Investigative Information Management System (12MS) program managers now
track the monthly data submissions to ensure OSI DIBRS data will be accurate
and complete.


Our Response
The AFOSI management comments are responsive to recommendation 2b. The AFOSI
official reported the managers of the DIBRS data submission have identified and
corrected internal flaws. Also, the new AFOSI reporting system will track monthly
data submissions for accuracy and completeness.




                                                                                      DODIG-2015-011 │ 15
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this assessment from February 2013 to October 2013 in accordance
                 with the Council of Inspectors General on Integrity and Efficiency, “Quality Standards
                 for Inspections and Evaluations,” January 2012. Based on the assessment
                 objectives, we planned and performed the evaluation to obtain sufficient
                 information to provide a reasonable basis for our observations and conclusions,
                 based on our assessment objectives.

                 Our work included a review of each submitting agency’s policies and procedures
                 for collecting and reporting data regarding criminal incidents. We reviewed the
                 processes used by submitting agencies to meet mandatory reporting requirements
                 for criminal activities and examined the reporting mechanisms/systems used for
                 automated reporting. We examined the types of data the submitting agencies report
                 to DIBRS.

                 Additionally, we evaluated how the submitting agencies processed DIBRS data
                 errors for correction and resubmission to DMDC. We interviewed the DoD Director
                 of Law Enforcement Policy and Support, the DMDC DIBRS System Administrator,
                 and key DCIO staff and analyzed criminal investigative database reports for a
                 specified time period.

                 We identified relevant Federal statutes and DoD Directives and other guidance.
                 We reviewed the Services’ and Agency’s policies and procedures guiding criminal
                 incident reporting mechanisms. We conducted a data call for each submitting
                 agency’s criminal incident reporting requirements and instructional material
                 pertaining to automated reporting systems. We determined how each agency
                 complies with federally mandated DIBRS reporting standards as supplemented by
                 DoD, Service, and submitting agency policy guidance.

                 As a result of the review and analysis of data call information, we interviewed the
                 DoD Director of Law Enforcement Policy and Support, the DMDC DIBRS Database
                 Administrator, and key DCIO staff to verify the results of the analysis and to obtain
                 additional information.




16 │ DODIG-2015-011
                                                                                      Appendixes



Finally, we determined the process the submitting agencies use to ensure
accurate reporting of criminal activities to DIBRS. We reviewed policy guidance
and documents to validate the submitting agencies processes concerning
accurate reporting.


Use of Computer-Processed Data
We    used   computer-processed   data   obtained   from   the   DIBRS   database.
The DIBRS database administrator provided spreadsheets consisting of DIBRS
error reports that were used in our analysis. Error reports were used as a tool
to review the types and numbers of errors the DIBRS database administrator
returned to the various submitting agencies for correction. Although there was
no way of validating whether the submitting agencies corrected the information,
the error reports provided a valuable insight into the complexity of the
reporting requirements.


Prior Coverage
No prior coverage has been conducted on DIBRS reporting and reporting accuracy
during the last 5 years.




                                                                                 DODIG-2015-011 │ 17
Appendixes




                 Appendix B
                 NIBRS Certification Requirements
                 For an agency to submit criminal incident data to NIBRS, the FBI’s Criminal
                 Justice Information System (CJIS), Crime Statistics Management Unit, Uniformed
                 Crime Reporting Office, must certify the agency’s data system. The FBI uses the
                 following criteria to grant a UCR Program or Law Enforcement Agency (LEA)
                 NIBRS certification:

                       1.	   System Appropriateness: A UCR Program or Law Enforcement Agency
                             must provide evidence their NIBRS-reporting system is compatible with
                             the FBI’s UCR system and follows NIBRS technical specifications.
                             A UCR Program or LEA seeking NIBRS certification must submit its
                             incident‑based system’s description including submission structure,
                             crime categories, segment relationships, number of offenses collected per
                             incident, and data values allowed per data element. The FBI will review
                             this document for program design and concept.

                       2.	   Update Capability and Responsiveness: A UCR Program or LEA must
                             demonstrate its ability to update submissions, meet deadlines, respond to
                             FBI queries and requests, and correct errors received from the FBI
                             UCR Program in a timely manner. A UCR Program or LEA must, at a
                             minimum, maintain a 2-year database of NIBRS submissions (retention
                             period) and have the capability to update incidents from the previous
                             calendar year.

                       3.	   Error Rate: Data submissions must be logical and consistent. The FBI
                             measures logic by the percent of Group A Incident Report submissions
                             containing an error. The FBI defines the error rate as the number of
                             rejected reports over the number of reports submitted. The FBI requires
                             a sustained error rate of 4 percent or less for three separate data
                             submissions.   The   applicable   errors   are   included   in   the   NIBRS
                             Technical Specification.




18 │ DODIG-2015-011
                                                                                    Appendixes



4.	   Statistical Reasonableness:  Data submissions must be statistically
      reasonable as a whole (in comparison to national trends). Although the
      error rate assesses the existence of logical mechanical flaws in the data,
      it does not address data in the aggregate. The FBI UCR Program
      evaluates aggregate data submissions in terms of percent distribution,
      data trend, volume, and monthly fluctuations.




                                                                               DODIG-2015-011 │ 19
Appendixes




                 Appendix C
                 References
                 The Uniform Federal Crime Reporting Act of 1988 (28 U.S.C. 534 note), the Victims’
                 Rights and Restitution Act of 1990 (42 U.S.C. 10601 note), and the Brady
                 Handgun Violence Prevention Act (18 U.S.C. 921 note) require all departments
                 and agencies within the Federal Government (including the Department of
                 Defense), which routinely investigate complaints of criminal activity, shall uniformly
                 report details about crime within their respective jurisdiction to the United States
                 Attorney General. The Attorney General shall acquire, collect, classify, and
                 preserve national data on Federal criminal offenses as part of the UCRs.

                 DoD Directive 7730.47, now DoD Instruction 7730.47, and DoD Manual 7730.47‑M,
                 Volume 1, implement those Federal laws and require the DCIOs to establish
                 procedures within their respective Military Services to report specific data
                 elements to comply with those Federal reporting mandates. Additionally, the above
                 DoD policies require the establishment and maintenance of a central database
                 regarding incidents of domestic violence involving members of the Military Services.
                 The central repository of criminal incident data is designed to enhance DoD’s
                 effectiveness in responding to Executive, legislative, and ad hoc requests for
                 statistical information relating to criminal and other high‑interest incidents. DIBRS
                 is the DoD’s centralized database system.

                 Annually, the DCIOs open investigations meeting the mandatory reporting
                 requirements under the Uniform Federal Crime Reporting Act of 1988 (28 U.S.C.
                 534 note), the Victim’s Rights and Restitution Act of 1990 (42 U.S.C. 10601 note),
                 and the Brady Handgun Violence Prevention Act (18 U.S.C. 921 note).

                 The Uniform Federal Crime Reporting Act of 1988 requires the Attorney General to
                 collect and preserve national data on Federal criminal offenses as part of the UCRs.
                 The Act directs all Federal agencies that routinely investigate complaints of criminal
                 activity to report details about such crimes to the Attorney General in a uniform
                 manner and on a form prescribed by the Attorney General. The Act requires the
                 Attorney General to distribute such details in the form of annual UCRs for the United
                 States to the President, the Congress, State governments, and officials of localities
                 and institutions participating in the UCR Program. The Act authorizes the Attorney




20 │ DODIG-2015-011
                                                                                              Appendixes



General to designate the FBI as the lead agency for performing the functions
authorized by this Act and to establish such advisory boards as may be necessary to
assist the Bureau. The Act requires the Director of the Bureau to classify offenses
involving illegal drugs and drug trafficking as a part I crime in the UCRs. Finally, the
Act authorizes appropriations.

Since the inception of the UCR Program in 1930, the FBI has been collecting crime
data on offenses and arrests from approximately 16,000 county, state, and Federal
law enforcement agencies.  The FBI uses the data to develop a reliable set of criminal
statistics for law enforcement agencies throughout the country to use in their
administration, operation, and management.

During the late 1970s, the law enforcement community expanded the use of the
UCR Program and developed new guidelines for reporting crime statistics. These
guidelines formed the basis of NIBRS, as mandated by The Uniform Federal
Crime Reporting Act of 1988, as amended. NIBRS requires law enforcement
agencies, including those within the Department of Defense, to report NIBRS data
to the Department of Justice for inclusion in the FBI-maintained system pursuant
to FBI handbook.

The FBI assembles, publishes, and distributes the data to contributing agencies,
including the Department of Defense, State UCR programs, Government bodies, and
others interested in the Nation’s crime problem. Law enforcement agencies consider
NIBRS data to be an indispensable tool in the war against crime because it provides
them with detailed, accurate, and meaningful statistical data about when and where
crime takes place, what form it takes, and the characteristics of its victims and
perpetrators. Law enforcement personnel and Government agencies armed with this
information can request and allocate resources, and inform interested parties on the
effort to combat crime.

The Victims’ Rights and Restitution Act of 1990 requires all Federal law enforcement
agency officers and employees to make their best efforts to accord victims of crime
with the right to: (1) be treated with fairness and respect for the victim’s dignity
and privacy; (2) be protected from their accused offenders; (3) be notified of court
proceedings; (4) attend public court proceedings related to the offense under certain
conditions; (5) confer with the Government attorney assigned to the case; (6) restitution;
and (7) information about the conviction, sentencing, imprisonment, and release of
the offender.




                                                                                         DODIG-2015-011 │ 21
Appendixes



                 As stated in DoD Manual 7730.47‑M, Volume 1: Pursuant to The Victims’ Rights and
                 Restitution Act of 1990, as amended, victims and selected witnesses must be notified
                 of their rights at certain phases of the case, from the time of initial contact by law
                 enforcement through the investigation phase, prosecution phase, and, if the case
                 results in confinement, the change in confinement status. The confinement
                 authority must advise the victim or witness of an inmate’s status, to include length
                 of sentence, anticipated earliest release date, place of confinement, the possibility of
                 transfer, the possibility of parole or clemency, release from confinement, escape, and
                 death. DoD Instruction 1030.2, “Victim and Witness Assistance Procedures,” requires
                 the use of DD Form 2705, “Victim/Witness Notification of Inmate Status,” for this
                 purpose. The DIBRS requires that the number of victim and witness notifications
                 be reported to DMDC in accordance with The Victims’ Rights and Restitution Act
                 of 1990, as amended.

                 The Brady Handgun Violence Prevention Act states that a licensed dealer shall not
                 transfer a firearm to any other person who is not licensed without completing a
                 background check or three business days elapsing. The Act directed the Attorney
                 General to establish a national instant criminal background check system within
                 5 years of enactment. The Act requires the purchaser of a firearm to provide a
                 statement that he or she is not under indictment or convicted of a crime, a fugitive
                 from justice, addicted or unlawful user of a controlled substance, “mentally defective”
                 or been committed to a mental institution, dishonorably discharged from the
                 Armed Services, an undocumented individual, or renounced American citizenship
                 to the local chief law enforcement officer.

                 According to DoD Manual 7730.47‑M, Volume 1, the DIBRS shall be used to centralize
                 the collection of information that is reportable by the DoD Components pursuant to
                 The Brady Handgun Violence Prevention Act, which requires the Department
                 of Defense to report these categories listed in the previous paragraph, to the
                 FBI for purposes of prohibiting firearm purchases by certain select individuals.




22 │ DODIG-2015-011
                      Management Comments




Management Comments
DHRA Comments




                            DODIG-2015-011 │ 23
Management Comments



                 DHRA Comments (cont’d)




24 │ DODIG-2015-011
                Management Comments



CIDC Comments




                      DODIG-2015-011 │ 25
Management Comments



                 NCIS Comments




26 │ DODIG-2015-011
                 Management Comments



AFOSI Comments




                       DODIG-2015-011 │ 27
Management Comments



                 DCIS Comments

                                                          INSPECTOR GENERAL
                                                           DEPARTMENT OF DEFENSE
                                                           4800 MARK CENTER DRIVE
                                                        ALEXANDRIA, VIRGINIA 22350-1500




                                                               INFO MEMO

                                                                                                  July 25, 2014

                      FOR: DEPUTY INSPECTOR GENERAL FOR POLICY AND OVERSIGHT
                                                                                                       WEILAND.RO        Digitally signed by
                                                                                                                         WEILAND.ROSS.WILLIAM.100613429
                                                                                                                         3


                      FROM: Ross Weiland, Assistant Inspector for Investigations – Internal Operations SS.WILLIAM.
                                                                                                                         DN: c=US, o=U.S. Government,
                                                                                                                         ou=DoD, ou=PKI, ou=DODIG,
                                                                                                                         cn=WEILAND.ROSS.WILLIAM.100613

                                                                                                       1006134293        4293
                                                                                                                         Date: 2014.07.25 12:05:25 -04'00'



                      SUBJECT: Comments to IPO Draft Report on Evaluation of DCIO’s DIBRS Reporting and
                               Reporting Accuracy (Project No. C2013-C003)

                      •   The purpose of this memorandum is to provide you with comments to the IPO Draft Report
                          entitled Evaluation of the Defense Criminal Investigative Organizations’ Defense Incident-
                          Based Reporting System Reporting and Reporting Accuracy (Project No. C2013-C003).

                      •   We have no issue with the factual statements in the draft report pertaining to DCIS. See p.7,
                          Draft Report. I would note, however, that since we provided your staff with this information,
                          circumstances surrounding the development and deployment of our CRIMS system have
                          changed. We now anticipate that DIBRS reporting will be addressed subsequent to the
                          deployment of CRIMS v.2. As of today, deployment of CRIMS v.2 is on hold while
                          information technology funding and budget issues are being addressed OIG-wide. If and
                          when we are able to deploy CRIMS v.2, we anticipate DIBRS compliance within 6 months
                          of deployment, depending on required funding and contract support.

                      •   Of greater concern is the absence in the Draft Report of the rationale behind DCIS’s lack of
                          DIBRS reporting compliance, or any mention of the DoD’s Law Enforcement Defense Data
                          Exchange (D-DEx).

                      •   We note the following:
                            o DIBRS does not actually report the information it collects to the FBI’s National
                                Incident-Based Reporting System (NIBRS) as intended;
                            o DIBRS has not received certification for reporting to NIBRS;
                            o DIBRS is expected to be replaced by D-DEx; and
                            o CRIMS v.2 is expected to be D-DEx compliant.

                      •   There is a supportable and rational basis for DCIS’s lack of compliance with DIBRS
                          reporting requirements and our preference would have been to include such rationale in the
                          report.


                      Prepared by: Ross Weiland, AIG-I for Internal Operations, 703-604-8603




28 │ DODIG-2015-011
                                                                                Acronyms and Abbreviations




Acronyms and Abbreviations
        ACI2 Automated Criminal Investigation Criminal Intelligence Information (CID)
       AFOSI Air Force Office of Special Investigations
         CID U.S. Army Criminal Investigations Command
         CJIS Criminal Justice Information Division
      CLEOC Consolidated Law Enforcement Operations Center (NCIS)
      CRIMS Case Reporting Information Management System (DCIS)
       DCIO Defense Criminal Investigative Organization
        DCIS Defense Criminal Investigative Service
       DIBRS Defense Incident-Based Reporting System
       DHRA Defense Human Resources Activity
      DMDC Defense Manpower Data Center
         FBI Federal Bureau Of Investigation
       I2MS Investigative Information Management System (AFOSI)
         LEA Law Enforcement Agency
        LEPS Law Enforcement Policy and Support
       MCIO Military Criminal Investigative Organization
        NCIS Naval Criminal Investigative Service
      NIBRS National Incident-Based Reporting System
         OIG Office of the Inspector General
 OUSD (P&R) Office of the Under Secretary of Defense for Personnel and Readiness
       UCMJ Uniform Code of Military Justice
        UCR Uniform Crime Report
     USACID U.S. Army Criminal Investigations Division
       U.S.C United States Code




                                                                                           DODIG-2015-011 │ 29
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
